Before the Committee on Appropriations
Subcommittee on Transportation, Housing and Urban Development,
and Related Agencies
United States Senate


                          The Federal Aviation
For Release on Delivery
Expected at
9:30 a.m. EDT
Thursday
May 12, 2011              Administration’s Fiscal
                          Year 2012 Budget Request:
CC-2011-026



                          Key Issues Facing the
                          Agency

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Madam Chairman and Members of the Subcommittee:

Thank you for inviting me to testify today on the Federal Aviation Administration’s
(FAA) fiscal year 2012 budget request. As you know, FAA faces significant
challenges to control costs in a tight budget environment while ensuring a safe and
modern National Airspace System (NAS). This past year, FAA has taken actions to
address many significant safety issues, most notably with its recent airworthiness
directive to inspect aging Boeing 737s in response to a recent in-flight hull breach.
However, much work remains to meet other key goals, including improving pilot and
air traffic controller training, effectively managing its multibillion-dollar capital
investments for the Next Generation Air Transportation System (NextGen), and
overseeing Federal airport grants.

My testimony today focuses on three major challenges FAA faces: (1) addressing
ongoing safety concerns, (2) managing NextGen advancement while controlling costs,
and (3) maximizing airport infrastructure funding to accommodate aviation growth.

In summary, FAA faces the formidable challenge of safely operating and maintaining
an increasingly strained NAS system while developing the next generation of air
traffic control—all within a severe budgetary environment. FAA will require
resources to address safety issues related to pilot, controller, and inspector workforces
and to make critical, long-delayed decisions about NextGen’s overall design—
decisions that will impact the program’s long-term costs and benefits. At the same
time, FAA requires better controls to instill accountability and better manage airport
infrastructure contracts and grants. FAA’s fiscal year 2012 budget request reflects the
Agency’s plans to improve its NextGen efforts, but it also reveals the difficulties FAA
has had in controlling its costs and schedules. Effectively balancing Agency priorities
now is essential to deliver a future system to travelers and airspace users that provides
a return on taxpayers’ investment, functions safely and efficiently, and adapts to
growing capacity needs and industry changes for many years to come.

BACKGROUND
FAA’s budget funds four accounts: operations; facilities and equipment (F&E); the
Airport Improvement Program (AIP); and research, engineering, and development
(RE&D).

• Operations funds most of FAA’s day-to-day activities, including the Agency’s
  safety oversight and air traffic control functions.

• F&E funds the Agency’s NextGen initiatives and other modernization activities
  such as improving aging infrastructure, power systems, navigational aids, and
  weather systems.


                                                                                       1
• AIP funds grants to airports to pay for runway construction and other related
  projects.

• RE&D funds NextGen and other research areas such as fire research and safety,
  aging aircraft, and other activities.

FAA’s total fiscal year 2012 budget request of $18.7 billion represents a 17 percent
increase over this year’s appropriated amount and includes significant funding
increases for infrastructure and modernization projects over its fiscal years 2010 and
2011 budgets (see table 1).
Table 1. FAA Budget Fiscal Year 2010 through Fiscal Year 2012
(Dollars in Millions)

Account                       2010 Actual         2011 Enacted   2012 Request   Increase from
                                                                                  2011 to 2012
Operations                           $9,351             $9,514         $9,823             3%

F&E                                    2,928             2,731          3,120            14%

AIP                                    3,121             3,515          5,524            57%

RE&D                                        191           170            190             12%
                                                             a
Total                               $15,591           $15,929         $18,657            17%
Source: FAA’s Office of Budget
a
  Figures may not add up due to rounding.


FAA proposes to shift the focus of its AIP account—which represents the largest
requested increase—to smaller commercial and general aviation airports and
eliminate guaranteed AIP funding for large and medium hub airports. The proposal
would also increase the passenger facility charge (PFC) limit from $4.50 to $7.00 per
enplanement for all eligible airports, giving large and medium hub airports greater
flexibility to generate their own revenue.

Almost 37 percent of FAA’s F&E account request, which represents the second
largest increase, is allocated for NextGen activities. Most of the increase in FAA’s
Operations budget is to fund inflation adjustments and the National Air Traffic
Controllers Association (NATCA) contract. Nearly 71 percent of the total requested
amount for Operations is used to pay for the salaries and benefits of most FAA
employees, including safety inspectors and air traffic controllers.

FAA is currently financed by two mechanisms: excise taxes deposited into the
Airport and Airway Trust Fund and a General Fund contribution. While the General
Fund has paid for about one-third of FAA’s total budget the past 2 years, in fiscal year
2012 the General Fund is expected to contribute $8.2 billion, or 44 percent, towards
the total budget. In addition, past differences between FAA’s budget, Trust Fund

                                                                                             2
revenues, and General Fund contribution were bridged by drawing down the Trust
Fund’s uncommitted balance. These drawdowns have caused a 90-percent decline in
the uncommitted balance, from $7.3 billion at the end of fiscal year 2001 to
$770 million at the end of fiscal year 2010 (see figure 1).
Figure 1. Airport and Airway Trust Fund Uncommitted Balance
Fiscal Year 2001 to Fiscal Year 2010 (Dollars in Millions)

  $8,000
  $7,000
  $6,000
  $5,000
  $4,000
  $3,000
  $2,000
  $1,000
      $0
       FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010

Source: FAA


ADDRESSING ONGOING SAFETY CONCERNS
The United States has the world’s safest air transportation system; however, our
current audit work and recent events, such as the near mid-air collision between an
American Airlines flight and two Air Force planes near New York City, underscore
the need for FAA to take additional actions to improve its safety oversight functions.
Key safety issues that FAA needs to address include a significant increase in
operational errors, controller staffing and training at air traffic control critical
facilities, oversight of air carrier and repair stations, and pilot training and fatigue.

Causes of Increases in Air Traffic Controllers’ Operational Errors Are
Not Fully Known
The number of operational errors by air traffic controllers increased by 53 percent
between fiscal years 2009 and 2010—from 1,234 to 1,887. According to FAA, the
rise in errors is primarily due to the introduction of voluntary, non-punitive safety
reporting programs, such as its new Air Traffic Safety Action Program (ATSAP).
ATSAP encourages controllers to voluntarily report operational errors in an effort to
better capture the actual number of errors and identify and address their root causes.
However, other factors may also contribute to the recent increases, including the large
influx of new controllers in training and the implementation of the Traffic Analysis
and Review Program (TARP), an automated system to identify when operational
errors (or other losses of separation between aircraft) occur at terminal facilities.


                                                                                         3
The National Transportation Safety Board (NTSB) has raised concerns about the
reliability of FAA’s process for assessing and reporting incidents involving losses of
separation and is currently reviewing reports of Traffic Collision and Avoidance
Systems (TCAS) advisories. 1 Since NTSB issued its final rule requiring aircraft
operators to report certain TCAS advisories in January 2010, the Board has received
nearly 950 reports of these collision advisories and has initiated investigations into
9 of the more severe incidents. 2 These mid-air incidents raise further concerns about
controller performance and how FAA classifies, reports, and mitigates losses of
aircraft separation within these new reporting systems. At the request of Members of
the Senate Committee on Commerce, Science, and Transportation, as well as the
Ranking Member of the House Transportation and Infrastructure Subcommittee on
Aviation, we will begin two audits to assess FAA’s implementation and oversight of
ATSAP and evaluate FAA’s process for tracking and reporting near mid-air collisions
and mitigating those risks.

Critical Facilities May Need More Certified Professional Controllers To
Effectively Train New Controllers
FAA is taking action to hire and train nearly 11,000 new controllers through fiscal
year 2020 to replace large numbers of retiring controllers hired after the 1981 strike.
However, FAA must focus on staffing and controller skill levels at those facilities that
are most critical to NAS operations. As of March 2011, 25 percent of FAA’s
controller workforce was in training—compared to 15 percent in 2004—meaning
fewer certified controllers in the workforce to control air traffic and provide on-the-
job training for new controllers. In addition, due to the attrition surge, FAA has had
to assign newly hired controllers to complex air traffic control locations, such as
Southern California, Atlanta, Chicago, and New York. Normally, new hires would
start their on-the-job training at less complex facilities and eventually transfer to a
higher level facility.

While FAA has ongoing actions or plans to improve controller training and
placement, some of the most critical facilities now have a significant percentage of
their workforce in training. For example, Denver Terminal Radar Approach Control
has 43 percent of its workforce in training, and LaGuardia Air Traffic Control Tower
has 39 percent. We are reviewing FAA’s plans to provide its critical facilities with
appropriate controller staffing, training resources, and other support necessary to
ensure continuity of facility operations. We expect to report on our results later this
year.


1
  An onboard TCAS issues advisories for pilots to take evasive actions when the system detects a potential collision with
other aircraft.
2
  After review by NTSB, many of these reports were considered “nuisance alerts” (i.e., situations in which there was no
collision risk but TCAS generated a resolution advisory). However, about 260 reports required additional data in order for
NTSB to understand and evaluate the circumstances that caused the apparent conflict and to determine whether further
action was warranted.

                                                                                                                        4
FAA Has Not Addressed Inspector Training and Staffing Issues That
Would Enhance Its Risk Based Oversight
Since 2003, FAA has enhanced the Air Transportation Oversight System (ATOS), its
risk-based oversight system for air carriers, by improving inspector guidance and
completing key processes for analyzing inspection results. However, in December
2010, we identified additional improvements FAA needed to make to strengthen
ATOS, such as requiring that inspectors’ risk assessments include analyses of all
available data sources—such as voluntary self-disclosure data—and changes that
occurred in the airline industry, such as mergers and acquisitions. We also reported
that ATOS implementation at smaller air carriers was hindered due to inspectors’
frustrations with adapting ATOS principles to their operations, staffing limitations,
and insufficient data to support ATOS’s data-driven approach. A contributing factor
may be that inspectors experienced gaps of 3 years or longer between when they
received systems safety training and when they actually used the system. FAA is
currently addressing our recommendations to ensure inspectors receive timely training
and use all available data sources for more accurate and relevant air carrier risk
assessments.
Another concern has been FAA’s inadequate oversight of aircraft repair stations, a
weakness we reported on in 2003. While FAA strengthened its procedures for
monitoring inspections of foreign repair stations that are conducted by aviation
authorities on its behalf and implemented a risk-based system in 2007 to target repair
stations with increased risk, concerns remain. As a result, Congress directed us to
assess FAA’s oversight system for foreign and domestic repair stations. We began
our review in January of this year.

FAA must also ensure it targets limited resources to areas of greatest risk by placing
its approximately 4,300 inspectors where they are most needed to effectively oversee
a dynamic aviation industry. In a 2006 study directed by Congress, the National
Research Council concluded that FAA’s methodology for allocating inspector
resources was not effective and recommended that FAA develop a new approach. In
response, FAA completed a new staffing model in October 2009. After completing
the model, FAA tested it using actual staffing data to determine whether it was ready
for full deployment. FAA used the model to assist in developing its fiscal year 2012
budget request for an additional $11.9 million to support an increase of up to
106 inspectors. However, FAA is still refining the model to make it more reliable.
As directed by Congress, we are evaluating FAA inspector staffing and the new
staffing model.
FAA and Industry Have Not Fully Addressed Pilot Training and Fatigue
Pilot training and fatigue continue to present challenges to FAA. The February 2009
fatal crash of Colgan Air flight 3407 underscores the importance of addressing these
long-standing safety concerns. In January 2009, FAA issued a Notice of Proposed

                                                                                    5
Rulemaking (NPRM) to revise crew training requirements by requiring more realistic
training scenarios with a complete flight crew, using flight simulator devices, and
working with new special hazard practices for pilots and crew members. Because of
the extensive industry comments on this proposed rule, FAA plans to submit a
Supplemental Notice of Proposed Rulemaking (SNPRM) to address the concerns.
However, as of April 2011, the SNPRM had not been issued. While the proposed rule
could significantly enhance pilot training programs, FAA still faces challenges
tracking pilots with poor performance and training deficiencies and overseeing air
carrier programs aimed at improving pilot skills.

FAA has also taken steps to address pilot fatigue issues, as required by the Airline
Safety and FAA Extension Act of 2010. 3 In September 2010, FAA published an
NPRM to institute new flight, duty, and rest requirements for pilots based on factors
such as time of day flown and sleep consideration rather than type of flight operation.
Issuing the NPRM was an important step towards changing outdated regulations.
However, FAA has already received more than 2,500 comments from industry, most
of which oppose the NPRM. Given industry’s historical opposition to revamping rest
rules, it will be a substantial challenge for FAA to finalize the rule by the
congressionally mandated deadline of August 2011. Further, the NPRM would not
require carriers to track pilots with lengthy commutes, a factor that can contribute to
pilot fatigue. FAA officials stated that enforcing this requirement would be difficult
and not necessarily result in responsible commuting. FAA instead issued draft
advisory guidance on pilots’ and carriers’ responsibility to ensure proper rest before
flying. However, without FAA and industry efforts to collect and analyze data on
pilot commuting, the current proposed actions to mitigate fatigue in aviation may not
fully address this critical safety issue.

MANAGING NEXTGEN’S ADVANCEMENT WHILE CONTROLLING
COSTS
FAA is developing NextGen, a satellite-based air traffic control system intended to
replace the current ground-based system, to better manage air traffic and meet future
air travel demands. However, FAA faces several management challenges in
implementing key NextGen programs in an efficient and cost-effective manner.
These include mitigating ongoing cost increases and schedule delays with FAA’s
ERAM program that will impact several NextGen programs and capabilities, better
managing contracts and its acquisition workforce to protect the taxpayers’ interest,
and keeping its operating costs from crowding out capital investments in NextGen.




3
    Airline Safety and Federal Aviation Administration Extension Act of 2010 Pub. L. No. 111-216, Section 212 (August
    2010).

                                                                                                                   6
Uncertain Design Decisions Put NextGen’s Cost and Schedule Targets
at Risk
FAA is making progress on near and mid-term NextGen efforts in response to
recommendations from a government-industry task force but must address long-term
cost, schedule, and performance issues. 4 In response to one of the task force’s most
critical recommendations, FAA launched its “metroplex initiative”—a 7-year effort
aimed at improving airspace efficiency to reduce delays at 21 congested airports in
major metropolitan areas. While FAA has completed studies at two prototype sites
and plans to study five more sites this year, many unresolved issues could delay the
effort and ultimately increase costs. For example, FAA has not established detailed
milestones to complete initiatives at high-activity locations or a mechanism for
integrating its metroplex initiative with other related task force recommendations,
such as better managing airport surface operations. Further, FAA needs to resolve
concerns that airline and air traffic facility officials have expressed about FAA’s
execution thus far, such as the slow pace of the effort and a lack of clearly defined
benefits to airspace users.

Realizing these benefits, however, depends on the timely deployment of new flight
procedures. As we noted in our December 2010 report, 5 FAA’s flight procedures are
mostly overlays of existing routes, which do not provide shorter flight paths to
alleviate congestion. Because FAA has mainly focused on developing a targeted
number of procedures each year—not on measuring user benefits—airlines have not
widely used the new procedures. At the same time, FAA faces several organizational,
policy, logistical, and training challenges that could impede NextGen implementation
in the midterm, including working across diverse agency lines of business.

FAA’s most recent NextGen Implementation Plan provides a framework for what
NextGen will resemble in the 2015 to 2018 timeframe and broadly outlines the
linkages between FAA and stakeholder investments. While the plan is responsive to
the task force, it does not outline NextGen capabilities, timing, and costs, which FAA
committed to in previous plans and budget requests to Congress. For example, the
plan does not discuss how delays in critical design decisions will affect NextGen
performance. Delayed decisions include (1) division of responsibility delegated to
pilots in the cockpit and to controllers and FAA ground systems for tracking aircraft;
(2) level of automation needed to support division of responsibility, ranging from
today’s largely manual flight management to a primarily automated system with little
controller involvement; and (3) the number and locations of air traffic facilities
needed to support NextGen.



4
    NextGen Mid-Term Implementation Task Force Report, September 9, 2009.
5
    OIG Report Number AV-2011-025, “FAA Needs To Implement More Efficient Performance-Based Navigation
    Procedures and Clarify the Role of Third Parties,” December 10, 2010.

                                                                                                    7
Unresolved Technical Problems with ERAM Have Resulted in Delays and
Cost Increases
Numerous technical problems with ERAM—the primary tool that will process en
route flight data—have pushed schedules well beyond original completion dates and
increased cost estimates by hundreds of millions of dollars. FAA planned to complete
deployment of ERAM to 20 en route facilities by the end of 2010 at a cost of
$2.1 billion. However, ERAM testing at initial operating sites revealed more than
200 software-related problems, such as radar processing failures, errors that tag flight
data to the wrong aircraft, and hand-off problems between controllers. As a result of
these problems at the initial sites, FAA postponed its plans to continue deployment of
ERAM at additional sites—originally scheduled for December 2009.

FAA is requesting $120 million for ERAM in its fiscal year 2012 budget request and
now plans to complete ERAM in 2014—a schedule slip of 4 years. However, FAA
and its contractor plan to add new capabilities while attempting to resolve problems
identified in earlier software versions, which could cause further schedule delays.
New software releases have already exhibited problems, including a significant
software failure that caused one site to revert back to using the legacy operating
system for several weeks.

While FAA estimates that delays with ERAM will translate into an additional
$330 million to complete deployment, our work and a recent MITRE analysis suggest
the total cost growth could be as much as $500 million. 6 Cost escalations of this
magnitude will affect FAA’s F&E budget and crowd other projects. Further, FAA
will incur additional costs to sustain aging equipment longer than planned and retrain
controllers on both the legacy and ERAM systems. The MITRE analysis cautions that
implementing ERAM at more complex sites, like Chicago and New York, may
require additional time and resources. Continued problems with ERAM will also
affect both the cost and pace of FAA’s other key NextGen efforts—some of which
have already been allocated more than $500 million to integrate and align with
ERAM. ERAM delays will also affect FAA’s ability to develop trajectory-based
operations 7 and transition to a common automation platform for terminal and en route
operations.




6
    MITRE Corporation and Massachusetts Institute of Technology/Lincoln Laboratory Report, Independent Assessment of
    the ERAM Program, October 15, 2010.
7
    Trajectory-based operations focus on more precisely managing aircraft from departure to arrival with the benefits of
    reduced fuel consumption, lower operating costs, and reduced emissions.

                                                                                                                      8
FAA Lacks an Integrated Master Schedule To Mitigate Risks In
NextGen’s Transformational Programs
FAA has not approved total program cost, schedule, or performance baselines for any
of NextGen’s transformational programs 8 and faces significant risks and challenges to
successfully implementing them. FAA’s fiscal year 2012 budget request includes
$590 million for the six programs, and the Agency plans to spend more than $2 billion
on them between 2012 and 2016. Three transformational programs that are critical to
achieving streamlined and more efficient data sharing for airspace users face
uncertainty with respect to what they will ultimately cost, when they will be
completed, and what they will deliver.

• Automatic Dependent Surveillance-Broadcast (ADS-B) ($285 million
  requested for fiscal year 2012) is a satellite-based surveillance technology that
  combines the use of aircraft avionics and ground-based systems. FAA is planning
  to implement ADS-B in four segments but has only approved $1.7 billion for the
  initial 2 segments to deploy the system’s ground infrastructure. FAA has
  deployed 275 of the planned 800 radio ground stations and also published a final
  rule mandating that airspace users equip ADS-B avionics by 2020. As we noted
  in our October report, 9 realizing the full range of ADS-B benefits will depend on
  (1) finalizing requirements for capabilities to display traffic information in the
  cockpit, (2) modifying the systems controllers rely on to manage traffic,
  (3) addressing broadcast frequency congestion concerns, (4) implementing
  procedures for separating aircraft, and (5) assessing security vulnerabilities. These
  risks, if not successfully mitigated, could lead to cost, schedule, and performance
  shortfalls.

• System Wide Information Management (SWIM) ($66 million requested for
  fiscal year 2012) is expected to form the basis for a secure network that manages
  and shares information more efficiently among all air traffic systems that will
  comprise NextGen. Key benefits expected from SWIM are streamlined data
  communications and real-time information that will improve air traffic
  management, enhance airspace capacity, reduce flight delays, and decrease costs
  for FAA and aviation users. FAA is planning to implement SWIM in three
  segments but has only approved funding for the first segment at an estimated cost
  of $284 million. FAA has already increased costs for the first segment by more
  than $100 million and delayed its completion by at least 2 years. Further, FAA
  has not established clear lines of accountability for overseeing how SWIM is
  developed and managed. Without a consistent vision of SWIM’s requirements

8
    FAA’s transformational programs, defined as programs directly related to the delivery of NextGen capabilities, will
    fundamentally change NAS by enhancing communications, improving the tracking of aircraft, and revamping overall air
    traffic management.
9
    OIG Report Number: AV-2011-002, “FAA Faces Significant Risks in Implementing Automatic Dependent Surveillance-
    Broadcast Program and Realizing Benefits,” October 12, 2010.

                                                                                                                     9
     and clearly defined program priorities, the true cost and timeline to deploy SWIM
     and the realization of expected benefits are unknown. We have transmitted
     recommendations to FAA for improving SWIM and expect to issue our final
     report this spring.

• Data Communications (DataComm) ($150 million requested for fiscal year
  2012) will provide two-way data communication between controllers and pilots
  that is analogous to wireless e-mail. FAA plans to implement DataComm in at
  least two segments, and a final investment decision is not expected until fiscal year
  2012. Total program costs are uncertain but estimated to be almost $3 billion.
  Developing and implementing DataComm is a complex, high-risk effort, and
  industry officials have expressed skepticism about FAA’s ability to deliver on
  such a program because the Agency abandoned a data link effort in the past due to
  cost concerns. The successful implementation of DataComm faces the challenges
  of integrating with FAA automation systems and overcoming users’ reluctance to
  equip.

FAA’s approach of baselining smaller segments of larger programs may reduce some
risks in the short-term, but as requirements continue to evolve, programs are left with
no clear end-state and decision makers lack sufficient information to assess progress.
Moreover, delays with one program can significantly slow another, since the
programs have complex interdependencies and integration issues with FAA’s existing
automation and communications systems. While FAA recognizes the need for an
integrated master schedule to manage the implementation of these NextGen
capabilities, it has yet to develop one. Without a master schedule, FAA will continue
to be challenged to fully address operational, technical, and programmatic risks and
prioritize and make informed trade-offs among the programs.

Contract Oversight and Administration Problems Contribute to Cost
Overruns With FAA Acquisitions
Our work on large FAA acquisition programs and high-risk procurements has
repeatedly identified weaknesses in the Agency’s contract administration. For
example, FAA awarded an $859 million contract for training air traffic controllers 10
without correctly assessing how many controllers needed training or addressing the
risk that the contractor’s proposed instructor hours were too low. These weaknesses
contributed to a $46 million cost overrun for the first 2 years of the contract.

Our ongoing work has similarly found weaknesses in FAA’s cost and price analysis
processes for noncompetitive contracts. In fiscal year 2009, FAA obligated over
$541 million for more than 16,500 noncompetitive contract actions. These contracts
have a high risk of overpayment because the contractor is assured to receive the

10
 OIG Report Number AV-2010-126, “FAA’s Air Traffic Controller Optimum Training Solution Contract: Sound Contract
 Management Practices are Needed to Achieve Program Outcomes,” September 30, 2010.

                                                                                                            10
award. However, for 8 of the 25 contracts we reviewed, FAA did not perform
effective cost and price analyses and was unable to demonstrate that prices paid were
reasonable. We expect to issue our final report later this month.

Another ongoing audit has identified concerns with FAA’s Systems Engineering 2020
(SE-2020) contracts to augment FAA staff and support NextGen implementation. The
contracts have a cumulative maximum value greater than $7 billion—the largest
award in FAA history. To date, our assessment of FAA’s contract award processes,
oversight mechanisms, and performance-based methods found that they may not be
adequate to achieve intended outcomes. We plan to issue our report later this year.

At the same time, FAA faces challenges in maintaining an acquisition workforce with
the skills needed to oversee its NextGen contracts. Currently, 20 percent of FAA’s
experienced acquisition workforce is eligible to retire, with a cumulative retirement
eligibility of 40 percent by fiscal year 2015. FAA’s Acquisition Workforce Plan
outlines the acquisition competencies needed, establishes hiring strategies, and
describes new certification and training programs. 11 However, the plan excludes
Federal and contractor acquisition employees working on FAA’s support services
contracts and technical officer representatives responsible for overseeing contracts
vital to NextGen, such as ERAM. Further, FAA fell short of its planned hiring targets
and hired less than 40 percent of the engineers needed to support acquisition
programs. FAA’s primary staffing needs are for engineers, which are critical to
implementing NextGen programs. However, FAA could not accurately determine
whether it hired enough engineers or program managers for NextGen because FAA’s
hiring data were either inaccurate or missing. FAA’s tracking systems are also
ineffective in monitoring the training and certification of its acquisition workforce.
We expect to issue our final report on FAA’s acquisition workforce this summer.

Increasing Operating Costs Risk Crowding Out NextGen Capital
Investments
FAA estimates that the 2009 collective bargaining agreement with NATCA will cost
the Agency $669 million more than it would have cost to extend the work rules
established in 2006 for 3 more years. In the past, our audit work found that
uncontained increases in operating costs have crowded capital investments.

Several factors in the agreement may further increase FAA’s costs:

• Most estimated costs are for increased salaries and benefits for controllers, but
  these will depend on the rate at which veteran controllers retire and are replaced
  by new controllers with lower salaries and benefits.


11
   FAA issued its workforce plan in 2009 and updated the plan in 2010, projecting its acquisition workforce needs through
 fiscal year 2014.

                                                                                                                     11
• Negotiated memorandums of understanding (MOU) may incur additional costs.
  FAA has had problems with managing its MOUs in the past. For example, in
  2003 we identified negotiated MOUs that resulted in millions of dollars in cost
  overruns. 12 As a result of our review, FAA established controls that it believes
  will prevent additional costs with MOUs in the agreement. However, some local
  air traffic managers and regional managers are not strictly complying with these
  controls. FAA must consider these issues as well as its budgetary constraints
  when negotiating its next collective bargaining agreement.

MAXIMIZING AIRPORT INFRASTRUCTURE FUNDING TO
ACCOMMODATE AVIATION GROWTH
FAA projects that passenger traffic will grow by 3.7 percent annually each of the next
5 years, and that by 2021 there will be 1 billion passengers. Ensuring enough
capacity at the Nation’s airports is essential to meeting this demand, reducing delays,
and realizing the full benefits of NextGen. This includes keeping key runways that
are planned or under construction on schedule and improving oversight of airport
grant programs to ensure funds are appropriately spent.

Funding, Legal, and Other Concerns Could Undermine Efforts To Keep
Runway Projects on Track
FAA has made progress in overseeing opening and improving runways at our
Nation’s airports; however, with capacity-enhancing airspace changes being
developed, FAA must ensure that current runway projects remain on schedule. Since
the start of fiscal year 2000, 17 new runways have been built, 13 4 runways were
reconfigured, 2 runways were extended, and 3 taxiways have opened.

FAA is pursuing several airspace redesign projects nationwide—including major
efforts to revamp airspace in the Atlanta, New York-New Jersey-Philadelphia, and
Chicago areas—that require a sufficient amount of runways to accommodate
additional traffic. Several runway projects either under construction or planned at key
airports will accommodate future air traffic growth and coincide with airspace
redesign efforts (see table 2). However, FAA and local airport authorities face
challenges that could impede the progress of these projects, including funding issues,
extensive environmental reviews, coordination among numerous stakeholders, and
legal issues. As these projects move forward, FAA should continue its efforts to
ensure that these projects are completed on time and within budget.




12
   OIG Report Number AV-2003-059, “FAA’s Management of and Control Over Memorandums of Understanding,”
   September 12, 2003. OIG reports are available on our Web site: www.oig.dot.gov.
13
   These projects included new runways at Boston, Chicago O’Hare, Atlanta, and Washington Dulles airports.

                                                                                                       12
Table 2. Status of Major New Runway Projects

                Airport                           Phase               Estimated              Total Cost Estimate
                                                                    Completion Date              (in millions)
Atlanta
                                         Site Prep                         2012                                     $46
(Runway 9L/27R)
Chicago O’Hare
                                         Construction                    Dec 2013                               $1,265
(Runway 10C/28C)
Chicago O’Hare                                     b
               a                         On Hold                         Oct 2015                                 $357
(Runway 9R/27L )
Chicago O’Hare                                     b
                                         On Hold                         Oct 2015                               $1,470
(Runway 9C/27C)
Chicago O’Hare
                                         Site Prep                       Jan 2015                                 $578
(Runway 10R/28L)
Fort Lauderdale
                a                        Design                          Jun 2014                                 $720
(Runway 9R/27L )
Philadelphia                    Record of Decision
                    a        a                                              TBD                                 $5,200
(Runway 9R/27L, 8/26 , 9R/27L ) Dec 2010
Source: OIG analysis of FAA’s quarterly report “Runway Projects at Core Airports Under Construction” for October–December
2010 (published February 1, 2011).
a
  Extension of existing runway.
b
  Due to lack of funding, completion dates for these projects could be extended up to 5 years.


FAA’s AIP Program Is Vulnerable to Improper Payments
Our continuing work on FAA’s $1.1 billion ARRA-funded airport grants indicates
that FAA has primarily focused its oversight on the construction status of projects, not
on ensuring grantees comply with FAA and Office of Management and Budget
financial oversight requirements. While FAA commissioned a review of ARRA
payments, its consultants determined in September 2010 that 14 of 24 airports did not
have adequate support to justify their ARRA payment requests. This is consistent
with findings we reported in December 2010 on FAA’s oversight of non-ARRA-
funded AIP grants. 14

In our December report, we identified $13 million in improper payments made to AIP
grantees; $7 million of that amount was due to documentation problems, and
$6 million could have been recovered by FAA. The $6 million of recoverable funds
included grantees receiving payments for ineligible services or paying ineligible
recipients and FAA making incorrect and duplicate payments. For example, during
fiscal years 2007 and 2008, the County of Sacramento billed FAA and was
reimbursed a total of $675,000—the full amount of construction invoices received—
but FAA reimbursed the County before the County had actually paid its construction
contractor. Subsequently, FAA agreed that these AIP payments were improper.


14
     OIG Report Number FI-2011-023, “Improper Payments Identified in FAA’s Airport Improvement Program,” December
     1, 2010.

                                                                                                                      13
Both our prior and ongoing AIP and ARRA work have identified several potential
weaknesses in FAA’s financial oversight that make its grant funds vulnerable to
improper payments. First, FAA relies on grantees to self-certify that they adhere to
their grant agreements and to maintain documentation validating payment requests.
Second, FAA does not review grantee payment requests beyond summary
documentation, which does not include actual contractor invoices. Third, grantees
approve change orders for contract work without required cost or price analyses—and
without FAA approval. Finally, FAA employees often cited staff and resource
limitations as impediments to more rigorous oversight.

CONCLUSION
FAA’s fiscal year 2012 budget proposal comes at a time when FAA must prepare for
the increasingly complex demands of the air system of the future—while continuing
to improve safety for the public today. Whether the particular issue at hand is
operational errors by air traffic controllers, technical problems affecting NextGen’s
advancement, or grant oversight of airport infrastructure projects, FAA needs sound
strategies for identifying trends that may be impeding its safety, modernization, and
financial goals. Effective data, analyses, and oversight will prove critical for FAA to
ensure taxpayer dollars are used wisely to maintain a safe, modern, and efficient
American airspace.

Madam Chairman, this concludes my statement. I would be happy to address any
questions that you or other Members of the Subcommittee may have.




                                                                                    14
